TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Processes for the Direct Deposit of
                        Tax Refunds Need Improvement to
                      Increase Accuracy and Minimize Fraud



                                       September 25, 2012

                              Reference Number: 2012-40-118




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                         HIGHLIGHTS


PROCESSES FOR THE DIRECT DEPOSIT                            TIGTA identified more than 4,400 bank accounts
OF TAX REFUNDS NEED IMPROVEMENT                             listed on tax return preparers’ personal returns
TO INCREASE ACCURACY AND                                    that had multiple direct deposits. More than
MINIMIZE FRAUD                                              202,000 refunds for more than $309 million were
                                                            sent to these bank accounts. This raises a
                                                            concern as to whether some tax return
Highlights                                                  preparers are diverting clients’ refunds or
                                                            portions of refunds *************2(f)********* to
Final Report issued on                                      pay tax preparation fees or for other reasons.
                                                            TIGTA also identified more than 200 bank
September 25, 2012
                                                            accounts listed on IRS employees’ tax returns
                                                            that had multiple direct deposits. More than
Highlights of Reference Number: 2012-40-118
                                                            10,600 refunds for more than $14 million were
to the Internal Revenue Service Deputy
                                                            sent to these bank accounts.
Commissioner for Services and Enforcement.
                                                            WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS
                                                            TIGTA recommended that the IRS *****2(f)******
More than 842,000 taxpayers chose to split their
                                                            ***2(f)****************tax return preparers and IRS
tax refunds between two to three different
                                                            employees who potentially divert direct deposits
checking or savings accounts using Form 8888,
                                                            *****2(f)*****************.
Allocation of Refund (Including Savings Bond
Purchases). However, more than 65,300 bank                  In their response to the report, IRS officials
accounts had multiple1 such direct deposits,                agreed with the recommendation and plan to
accounting for more than 949,000 refunds for                take appropriate corrective actions.
approximately $1.6 billion. While direct deposits
should only be made to accounts in the
taxpayer’s name, the current practice of **2(f)**
********************2(f)*****************************
*************2(f)********* increases the potential
for fraud, misuse, and abuse.
WHY TIGTA DID THE AUDIT
The overall objective of this audit was to
evaluate the IRS’s controls over the direct
deposit of refunds. This audit addresses the
major management challenges of Providing
Quality Taxpayer Service Operations and
Fraudulent Claims and Improper Payments.
WHAT TIGTA FOUND
While some actions have been taken, IRS
processes are not *************2(f)************
**********************2(f)*********************
**********************2(f)*******************
**********************2(f)***************************.
Additionally, the option to split a refund between
multiple accounts increases the risk of fraud.


1

***************************2(f)*************
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 25, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Processes for the Direct Deposit of Tax Refunds
                             Need Improvement to Increase Accuracy and Minimize Fraud
                             (Audit # 201140021)

 This report presents the results of our review to evaluate the Internal Revenue Service’s controls
 over the direct deposit of refunds. This audit is included in our Fiscal Year 2012 Annual Audit
 Plan and addresses the major management challenges of Providing Quality Taxpayer Service
 Operations and Fraudulent Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of the report are also being sent to the Internal Revenue Service managers affected by
 the report recommendation. Please contact me at (202) 622-6510 if you have questions or
 Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and
 Account Services), at (770) 617-6434.
                              Processes for the Direct Deposit of Tax Refunds
                        Need Improvement to Increase Accuracy and Minimize Fraud




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Processes Are Not Sufficient to Ensure Tax Refunds Are
          Deposited ****************2(f)********************* ..................... Page 3
          The Option to Split Income Tax Refunds Could Increase
          the Risk of Fraud, Misuse, and Abuse .......................................................... Page 6
                    Recommendation 1:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Management’s Response to the Draft Report ...................... Page 16
              Processes for the Direct Deposit of Tax Refunds
        Need Improvement to Increase Accuracy and Minimize Fraud




                      Abbreviations

IRS             Internal Revenue Service
NACHA           National Automated Clearing House Association
TIGTA           Treasury Inspector General for Tax Administration
                           Processes for the Direct Deposit of Tax Refunds
                     Need Improvement to Increase Accuracy and Minimize Fraud




                                                Background

The majority of individual taxpayers are now choosing to have their Federal tax refunds directly
deposited to their checking or savings accounts or to a debit card.1 The Internal Revenue Service
(IRS) deposited more than 79 million refunds (72 percent of total refunds) directly into
taxpayers’ bank accounts during Calendar Year 2011. These direct deposits accounted for more
than $246 billion in refunds, averaging $3,109 each. Figure 1 shows the increase in the use of
direct deposits over the last five calendar years.
                   Figure 1: Calendar Year Direct Deposit Refund Statistics


             Number of Refunds (millions)                            Amount Refunded (billions)

       80                                                   $260
       70                                        79         $240
                                         75                                                              $246
       60                     73                            $220                                $238
              62    66
       50                                                   $200                       $221
       40                                                   $180
       30                                                   $160             $181
       20                                                            $166
                                                            $140
       10
                                                            $120
        0
            2007    2008     2009        2010   2011        $100
                                                                   2007     2008     2009       2010     2011
                         Calendar Year                                          Calendar Year



Source: IRS.gov, the IRS’s public Internet site, and IRS management reports.

Taxpayers have more choices and flexibility for direct deposits of their Federal income tax
refunds than ever before. Taxpayers can opt to split their refunds among up to three different
checking or savings accounts by simply filling out Form 8888, Allocation of Refund (Including
Savings Bond Purchases). To obtain a tax refund via direct deposit, the taxpayer is required to
provide the bank routing and account numbers and the type of bank account (checking or
savings).




1
 These include prepaid debit cards as well as reloadable cards. Currently, the IRS cannot differentiate between
direct deposits of tax refunds made to a bank account and tax refunds deposited or loaded to debit cards.
                                                                                                            Page 1
                          Processes for the Direct Deposit of Tax Refunds
                    Need Improvement to Increase Accuracy and Minimize Fraud



Figure 2 provides an example of where the required information is to be provided on the
Form 8888.
                                Figure 2: Excerpt From Form 8888




                  Source: www.IRS.gov.

In Calendar Year 2011, more than 842,000 individuals chose to split tax refunds totaling more
than $3.4 billion between two to three different checking or savings accounts. The number of
individuals using the split refund option increased 41 percent over Calendar Year 2010, and the
amount of refunds increased by 33 percent.
This review was performed at the IRS campus2 in Fresno, California, during the period
August 2011 through June 2012. The review also included discussions with IRS personnel in the
Wage and Investment Division Headquarters in Atlanta, Georgia, and Criminal Investigation and
the National Taxpayer Advocate in Washington, D.C. Additionally, discussions were held with
the Financial Management Service, the Federal Reserve Board, and the National Automated
Clearing House Association (NACHA – The Electronic Payments Association, hereafter referred
to as “the NACHA”).
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.

2
 IRS campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                       Page 2
                            Processes for the Direct Deposit of Tax Refunds
                      Need Improvement to Increase Accuracy and Minimize Fraud




                                       Results of Review

Processes Are Not Sufficient to Ensure Tax Refunds Are Deposited
************************2(f)*****************
Treasury Inspector General for Tax Administration (TIGTA) auditors analyzed the 79 million
Tax Year3 2010 Form 1040, U.S. Individual Income Tax Return, refund returns with direct
deposits4 and selected a statistically valid random sample of 400 of these tax returns for further
analysis. The results showed that although the IRS takes actions to ensure the accuracy of direct
deposit information, *******************************2(f)*************************
***************************2(f)********************************.
The IRS ensures that *******************************2(f)**********************
**************************************2(f)**********************************
**************************************2(f)*********************************
**************************************2(f)************************************
*********************************2(f)**********************************.
The IRS also educates taxpayers and tax return preparers of the requirement that direct deposits
************************2(f)**********************.
        Form 1040 and Form 8888 instructions both inform taxpayers that the direct deposit
         request will be rejected if their refund is deposited to an account that is not in their name.
        Publication 1345, Handbook for Authorized IRS e-file Providers of Individual Income
         Tax Returns, informs Electronic Return Originators5 that taxpayers should not request a
         deposit of their refund to an account that is not in their own name (such as their tax return
         preparer’s own account).
        Publication 4491, VITA/TCE Training Guide, instructs volunteers to advise taxpayers that
         their refunds may only be directly deposited into their own accounts.
Nevertheless, tax refunds ****************************2(f)************************
******2(f)***** and certain accounts continue to receive multiple tax refunds.




3
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is the same as the calendar year.
4
  This includes debit cards.
5
  An Electronic Return Originator originates the electronic submission of returns it either prepares or collects from
taxpayers after receiving authorization from the taxpayers to electronically file (e-file) the returns.
                                                                                                               Page 3
                        Processes for the Direct Deposit of Tax Refunds
                  Need Improvement to Increase Accuracy and Minimize Fraud



By matching bank routing and account numbers listed on the 400 tax returns sampled to the
direct deposits population database, we found that that the account numbers listed on
10 (2.5 percent) of the 400 returns had received multiple6 direct deposits. More than
2,100 refunds totaling $2.2 million were deposited to the bank accounts listed on these 10 tax
returns. Overall, of the approximately 79 million Tax Year 2010 Forms 1040 with direct
deposits of refunds, more than 65,300 unique bank accounts had multiple direct deposits –
accounting for approximately 949,000 refunds totaling $1.6 billion.
Federal regulations specify that direct deposit payments should be made only to a bank account
*************2(f)***************. For consumer protection, the regulations are designed to
ensure that payments reach the intended recipient *********************2(f)************
*****************************2(f)*******************************.7

The IRS provides financial institutions with identifying information that could be
used to ensure that refunds are deposited only into an account in the name of the
taxpayer
Information that could be used to ensure that tax refunds are deposited into an account
**2(f)**************** is provided by the IRS to the Financial Management Service, which
then transmits the information to financial institutions. This information includes ****2(f)*****
*****************************2(f)************************************. Rules and
regulations that govern the Automated Clearing House8 network are established by the NACHA.
**************************************2(f)*************************************
***************2(f)*************************. Financial Management Service guidance
also states that the financial institution is not liable for any loss when deposits are made in
accordance with instructions from the IRS (i.e., the refund is deposited into the bank account
specified by the IRS).
Representatives from the NACHA indicated that some banks, possibly those with fewer direct
deposits, *******************2(f)**********************************. However, the
representatives stated that not all financial institutions have the capability to perform such a
match using an automated process. Consequently, expenses would be incurred to either upgrade
the automated systems or to manually process the tax refund transactions.




6
  **********************************************2(f)**************************************
************************************************2(f)******************************************
*******2(f)**
7
  Federal Register, Vol. 76. No.185, September 23, 2011, pp. 59024–59031.
8
  An automated clearing house is a facility that clears debit and credit items for banks.
                                                                                           Page 4
                          Processes for the Direct Deposit of Tax Refunds
                    Need Improvement to Increase Accuracy and Minimize Fraud



TIGTA has previously reported that processes are insufficient to ensure the
accuracy of tax refund direct deposits and minimize fraud
A Fiscal Year 2008 TIGTA review found that the IRS had not developed processes to ensure tax
refunds were deposited only to an account ***2(f)**************.8 We recommended that the
IRS coordinate with responsible Federal agencies and banking institutions to develop a process
to ensure that direct deposit payments are made ******************2(f)******************
**2(f)** and to limit the number of direct deposits being sent to the same account. In response,
the IRS considered limiting the number of direct deposits being sent to the same account;
however, it had numerous concerns, including circumstances where multiple deposits to a single
account were legitimate and acceptable because the accounts were held in the names of multiple
individuals.
The IRS asked the Financial Management Service to consider proposing a regulation to require
financial institutions to match account numbers with another piece of information, such as a
Social Security Number or name, in Federal direct deposit payments to reduce the number of tax
refunds that are delivered to the wrong account. The Financial Management Service responded
that it did not believe that it would be productive to propose such a regulation. It explained that
it published a proposed regulation in 1998 that would have required financial institutions to
match the account number against another piece of information in the entry, such as the name or
Social Security Number. After considering the comments received, it decided to not finalize the
proposal. However, since that time, tax-related identity theft and refund fraud have grown
significantly.

The inability to ensure the accuracy of direct deposits increases fraud potential
In a July 2012 audit report on identity theft, we reported that direct deposit, including debit
cards, continues to be a key method individuals use to obtain fraudulent tax refunds.9 Limiting
the number of tax refunds that can be deposited to the same account could potentially decrease
losses associated with fraud.
Direct deposit is frequently the payment method used by individuals who attempt to commit
filing fraud. Direct deposit provides the ability to quickly receive fraudulent tax refunds without
the difficulty of having to negotiate a tax refund paper check. To cash a check, individuals
usually have to provide picture identification matching the name on the tax refund check—in the
case of identity theft, the name of the legitimate taxpayer. This means that the identity thief
would need to obtain false identification to cash the fraudulently obtained tax refund check.



8
  TIGTA, Ref. No. 2008-40-182, Processes Are Not Sufficient to Minimize Fraud and Ensure the Accuracy of Tax
Refund Direct Deposits (Sept. 2008).
9
  TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting From
Identity Theft (July 2012).
                                                                                                      Page 5
                           Processes for the Direct Deposit of Tax Refunds
                     Need Improvement to Increase Accuracy and Minimize Fraud



In our July 2012 report, we recommended that the IRS:
        As previously recommended, coordinate with responsible Federal agencies and banking
         institutions to develop a process to ensure that tax refunds issued via direct deposit to
         either a bank account or a debit card account are made only to an account in the
         taxpayer’s name.
        As previously recommended, limit the number of tax refunds issued via direct deposit to
         the same bank account or debit card account in an attempt to reduce the potential for
         fraud.
        Develop processes to identify and quantify direct deposits of tax refunds to accounts
         associated with a debit card as well as the ability to associate tax refunds deposited to a
         debit card to a specific tax account.
        Work with the Department of the Treasury to ensure financial institutions and debit card
         administration companies authenticate the identity of individuals purchasing a debit card.
         Furthermore, prevent the direct deposit of tax refunds to debit cards issued or
         administered by financial institutions and debit card administration companies that do not
         take reasonable steps to authenticate individuals’ identities.
The IRS agreed with all four recommendations; therefore, we are not making recommendations
related to this issue at this time.

The Option to Split Income Tax Refunds Could Increase the Risk of
Fraud, Misuse, and Abuse
Tests results showed multiple direct deposits of refunds were made to bank accounts listed on tax
return preparers’ own personal tax returns. This could indicate that tax return preparers are using
the split refund option as a way for taxpayers to pay for their tax preparation services or to pay
for Refund Anticipation Loans and Refund Anticipation Checks.10 The purpose of Form 8888 is
to provide taxpayers the ability to allocate their refunds to more than one of their bank accounts.
The law specifically prohibits the deposit of an income tax refund into a tax return preparer’s
bank account.11 However, the IRS ******************************2(f)**************
***************************************2(f)**************************.
Our analysis of the more than 79 million Tax Year 2010 returns identified 4,406 bank accounts
listed on tax return preparers’ personal tax returns that had multiple tax refunds directly


10
   A Refund Anticipation Loan is a short-term loan secured by the taxpayer’s expected tax refund. A Refund
Anticipation Check is the nonloan bank product that many commercial tax return preparers and their bank partners
offer in addition to Refund Anticipation Loans.
11
   Internal Revenue Code Section 6695(f).
                                                                                                          Page 6
                           Processes for the Direct Deposit of Tax Refunds
                     Need Improvement to Increase Accuracy and Minimize Fraud



deposited.12 More than 202,000 taxpayer refunds totaling more than $309 million13 were sent to
these bank accounts. Figure 3 provides a breakdown of the most significant examples of
multiple taxpayer tax refunds being deposited to bank accounts listed on tax return preparers’
personal tax returns.
       Figure 3: Examples of Bank Accounts Listed on Preparers’ Tax Returns
          Receiving More Than 1,500 Direct Deposits From Other Taxpayers

        Number of Direct Deposits              Amount of Tax Refunds                Average Tax Refunds
           Per Bank Account                     Deposited to Account                Deposited to Account

                    1,550                               $199,738                               $129

                    1,578                               $666,166                               $422

                    1,637                               $250,622                               $153

                    2,039                             $6,356,687                            $3,118

                    2,063                               $582,526                               $282

                    2,458                               $585,260                               $238

                    3,282                             $1,536,368                               $468

                    3,934                           $15,756,854                             $4,005

                    4,618                           $15,686,254                             $3,397
     Source: TIGTA analysis of Tax Year 2010 returns.

Our analysis of 4,406 bank accounts listed on tax return preparer’s personal Tax Year 2010
returns with multiple direct deposits showed that almost 60 percent of the refunds directed to the
accounts were for $500 or less. Figure 4 shows the stratification by refund amount deposited to
the account. Figure 5 shows the top five common refund amounts deposited to the accounts.




12
   Starting in January 2011, preparers are required to register with the IRS for a Preparer Tax Identification Number
and include it on all tax returns they prepare. We were unable to perform this match on 7,092 Preparer Tax
Identification Number holders ***********2(f)************************ on the Preparer Registration file. We
were also unable to perform this match on the tax return preparers who ***************2(f)************
***********************2(f)*************.
13
   Tax return preparers’ own tax refunds may be included in the $309 million.
                                                                                                             Page 7
                          Processes for the Direct Deposit of Tax Refunds
                    Need Improvement to Increase Accuracy and Minimize Fraud



             Figure 4: Stratification, by Dollar Amount, of Refunds Directly
             Deposited to Bank Accounts Listed on Preparers' Tax Returns
                           (Accounts With Multiple Refunds)

                                  Number of Tax                                       Percentage of
                                Refunds Deposited              Total Dollar           Number of Tax
     Range of Amount             to Accounts With               Amount              Refunds Deposited
      of Tax Refunds              MultipleRefunds              of Refunds           to the Accounts **
           $1 – $500                  114,684                  $22,193,120                  56%
       $501 – $1,000                   15,956                  $12,153,632                    8%
      $1,001 – $1,500                  10,318                  $12,867,513                    5%
      $1,501 – $2,000                   9,359                  $16,699,341                    5%
      $2,001 – $2,500                   6,000                  $13,466,711                    3%
      $2,501 – $3,000                   7,081                  $19,864,347                    3%
      $3,001 – $3,500                   5,314                  $17,241,321                    3%
        Over $3,501                    33,852                 $194,776,217                  17%
   Total                              202,564                 $309,262,202                 100%
  Source: TIGTA analysis of Tax Year 2010 returns. ** Percentage differences are due to rounding.


                 Figure 5: Top Five Common Refund Amounts Deposited
                  to the Bank Accounts Listed on Preparers' Tax Returns

                  Amount of Tax Refunds                           Number of Refunds
                 Deposited to the Accounts                     Deposited to the Accounts
                              $100                                         7,930
                              $125                                         5,407
                              $150                                         8,122
                              $200                                         7,508
                              $250                                         4,917
           Source: TIGTA analysis of Tax Year 2010 returns.

We could not verify that the tax return preparers owned the bank accounts. However, the same
account on the tax preparer’s individual tax return was used on multiple returns he or she
prepared.
Many tax return preparers may have diverted funds to their own bank accounts to pay tax
preparation fees or provide Refund Anticipation Loans. Publication 1345 states that taxpayers

                                                                                                    Page 8
                           Processes for the Direct Deposit of Tax Refunds
                     Need Improvement to Increase Accuracy and Minimize Fraud



should not request a deposit of their refund to an account that is not in their own name (such as
their tax preparer’s own account). Additionally, it directs tax return preparers to work with a
separate financial institution to provide Refund Anticipation Loans. Financial institutions
generally use ****2(f)****************** of the taxpayer as part of the account number to
differentiate recipients and to make each account unique.

Multiple direct deposits of refunds were sent to bank accounts listed on IRS
employees’ tax returns
Our analysis of the Tax Year 2010 returns identified 209 bank accounts listed on IRS employees’
tax returns that had multiple direct deposits.14 There were 10,601 refunds sent to these bank
accounts, and the refunds totaled more than $14 million. Figure 6 provides a breakdown of the
most significant examples.
            Figure 6: Examples of Bank Accounts Listed on IRS Employees’
                Tax Returns Receiving More Than 200 Direct Deposits15


       Number of Direct Deposits              Amount of Tax Refunds              Average Tax Refunds
          Per Bank Account                   Deposited to the Account           Deposited to the Account
                    204                                  $18,099                               $89
                    211                                $450,651                             $2,136
                    249                                  $82,435                              $331
                    268                              $1,080,310                             $4,031
                    344                              $1,208,998                             $3,515
                    394                              $1,817,482                             $4,613
                    410                                $191,252                               $466
                    418                                $587,970                             $1,407
                    490                                $106,401                               $217
                    630                              $3,233,818                             $5,133
     Source: TIGTA analysis of Tax Year 2010 returns.




14
   These bank accounts could overlap and be included in the 4,406 bank accounts listed on the tax return preparer’s
personal returns that had multiple direct deposits.
15
   The employee data includes both current employees as of February 11, 2012, and former employees who
separated from the IRS during Calendar Year 2011.
                                                                                                            Page 9
                       Processes for the Direct Deposit of Tax Refunds
                 Need Improvement to Increase Accuracy and Minimize Fraud



As with the return preparers, we could not verify that the IRS employees owned the bank
accounts in question.

Recommendation
Recommendation 1: The Deputy Commissioner for Services and Enforcement should
*******2(f)******************* tax return preparers and IRS employees who potentially
*********************2(f)************************.
       Management’s Response: New filters are being developed for the 2013 Filing
       Season regarding multiple deposits to the same account. These filters will assist in
       addressing the issues identified in the report. The IRS is also developing a messaging
       strategy for the 2013 Filing Season to remind taxpayers and tax return preparers that
       refunds due to taxpayers may not be ***************2(f)************************
       The strategy will also inform taxpayers they should not permit any portion of their refund
       to be ******************************************2(f)**********************
       **2(f)***. In addition to the communication strategy and efforts already underway to
       restrict direct deposits of tax refunds to taxpayer-owned accounts, the IRS is developing
       controls to identify instances where it appears tax return preparers and IRS employees
       may be improperly using the direct deposit program for unintended purposes.




                                                                                          Page 10
                          Processes for the Direct Deposit of Tax Refunds
                    Need Improvement to Increase Accuracy and Minimize Fraud



                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the IRS’s controls over the direct deposit of refunds. To
meet this objective, we performed the following tests:
I.      Determined whether conditions identified in the prior TIGTA audit1 still existed and
        whether the recommendations were implemented and corrective actions were effective.
        A. Reviewed the Joint Audit Management Enterprise System report from the prior
           TIGTA audit and determined if the recommendations had been implemented. We
           identified the industry standards for controlling direct deposit transmission and
           whether compliance with 31 Code of Federal Regulation Section 210.5 was being
           enforced.
        B. Interviewed IRS staff in the Wage and Investment Division and the National
           Taxpayer Advocate office to evaluate material changes to controls over direct
           deposits and their impact on tax administration.
        C. Interviewed officials from the Financial Management Service and the Federal
           Reserve and determined whether material changes had been made to direct deposit
           processing since the prior TIGTA audit.
        D. Interviewed NACHA officials and determined whether material changes had been
           made to direct deposit processing since the prior TIGTA audit. We discussed
           matching direct deposit refund payments using taxpayer ***2(f)***************
           identity indicators before the acceptance of the direct deposit.
II.     Determined whether controls over the direct deposit of refunds into taxpayer bank
        accounts were adequate to ensure that deposits were accurately processed.
        A. Researched TIGTA and Government Accountability Office audit reports for
           previously reported control breakdowns.
        B. Researched the Internal Revenue Manual and determined if procedures used by the
           IRS to process direct deposits requested on Forms 1040, U.S. Individual Income Tax
           Return, and Forms 8888, Allocation of Refund (Including Savings Bond Purchases),
           were adequate.



1
 TIGTA, Ref. No. 2008-40-182, Processes Are Not Sufficient to Minimize Fraud and Ensure the Accuracy of Tax
Refund Direct Deposits (Sept. 2008).
                                                                                                    Page 11
                           Processes for the Direct Deposit of Tax Refunds
                     Need Improvement to Increase Accuracy and Minimize Fraud



         C. Obtained an Individual Master File2 computer extract and identified more than
            79 million Tax Year 2010 Form 1040 refund returns with direct deposits. A
            statistically valid random sample of 400 returns was selected using a 5 percent margin
            of error, a 95 percent confidence level, and a 50 percent response distribution. We
            reviewed the sample of 400 returns to determine if direct deposits requested on
            Forms 1040 and Forms 8888 were accurately processed.
III.     Analyzed the TIGTA Data Center Warehouse3 Individual Master File Refund Files4 and
         identified potential fraud cases involving direct deposits, including the misuse of
         Forms 8888.
         A. Interviewed IRS officials in the Wage and Investment Division Customer Account
            Services function, the National Taxpayer Advocate’s office, and Criminal
            Investigation regarding current and past procedures for misdirected direct deposits by
            employees or third parties, misuse or abuse of Forms 8888 to collect fees by tax
            return preparers, refund theft steps taken to advocate for affected taxpayers and the
            IRS, and preventive controls in place.
         B. Analyzed trends in IRS employee-related direct deposit fraud cases. We obtained the
            TIGTA Office of Investigations database of completed direct deposit fraud cases. We
            obtained employee data from the Treasury Integrated Management Information
            System5 on current and separated employees. We matched employees to the Refund
            Files and obtained employee bank information. We queried the match and identified
            multiple direct deposits going into same bank account. We reviewed cases that
            represented anomalies.
         C. Analyzed trends in tax return preparer-related direct deposit fraud cases or misuse of
            Forms 8888. We matched the Preparer Tax Identification Number Files (all years) to
            the Refund Files and obtained tax return preparer bank information.6 We queried the

2
  The IRS database that maintains transactions or records of individual taxpayer accounts.
3
  A collection of IRS databases containing various types of taxpayer account information that is maintained by the
TIGTA for the purpose of analyzing data for ongoing audits.
4
  The Refund File captures all refunds which are sent by the IRS to the Financial Management Service for
processing. The Financial Management Service is responsible for generating the actual refunds based upon the
information provided by the IRS. The refunds are sent by the Financial Management Service to the taxpayers in the
form of bank account direct deposits or mailed paper checks. These files capture the associated name, address, and
account information for the entity receiving the refunds and are useful for identifying tax refund fraud.
5
  The official automated personnel and payroll system for storing and tracking all employee personnel and payroll
data.
6
  Starting in January 2011, preparers are required to register with the IRS for a Preparer Tax Identification Number
and include it on all tax returns they prepare. We were unable to perform this match on 7,092 tax return preparers in
the Preparer Tax Identification Number File **2(f)*******************************. We were also unable to
perform this match on the tax return preparers who were not in the Preparer Tax Identification Number File
****************2(f)***********************.
                                                                                                           Page 12
                           Processes for the Direct Deposit of Tax Refunds
                     Need Improvement to Increase Accuracy and Minimize Fraud



             match and identified multiple direct deposits going into same bank account. We
             reviewed cases that represented anomalies.
        D. Identified multiple direct deposits going to the same account number. We analyzed
             returns and determined if there was a logical reason for the multiple refunds.
Data validation methodology
During this review, we relied on data extracted from the TIGTA Data Center Warehouse of the
IRS’s Individual Master File and the Refund Files for Processing Year7 2011. Before relying on
the data, we ensured that each file contained the specific data elements we requested. In
addition, we reviewed random samples of 25 records from both the Individual Master File and
Refund File extracts and verified that the data in the extracts was the same as the data captured in
the IRS’s Integrated Data Retrieval System.8 These tests demonstrated that the data were
sufficiently reliable and could be used to meet the objectives of this audit.
We also relied on data extracts of the Preparer Tax Identification Number Files, the Treasury
Integrated Management Information System, and the Bank Routing Number File. Before relying
on the data, we ensured that each file contained the specific data elements we requested.
However, for these data files we relied on data validity and reliability checks routinely done by
the Data Center Warehouse staff.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Accounts Management and Submission
Processing functions’ policies, procedures, and practices related to processing direct deposit tax
refunds. We evaluated those internal controls by interviewing management and operational
personnel, reviewing policies and procedures, participating in walkthroughs, and analyzing
actual direct deposit refunds that were processed.




7
 The calendar year in which the tax return or document is processed by the IRS.
8
 IRS computer system capable of retrieving or updating stored information. It works in conjunction with taxpayer
account records.
                                                                                                        Page 13
                       Processes for the Direct Deposit of Tax Refunds
                 Need Improvement to Increase Accuracy and Minimize Fraud



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Roy E. Thompson, Audit Manager
Jane G. Lee, Lead Auditor
Jennie G. Choo, Senior Auditor
Laura Paulsen, Senior Auditor




                                                                                     Page 14
                      Processes for the Direct Deposit of Tax Refunds
                Need Improvement to Increase Accuracy and Minimize Fraud




                                                                  Appendix III

                     Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Wage and Investment Division SE:W
Chief, Criminal Investigation SE:CI
Chief Technology Officer OS:CTO
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Refund Integrity and Correspondence Services SE:W:RICS
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI
   Director, Communications and Liaison, National Taxpayer Advocate TA




                                                                          Page 15
                           Processes for the Direct Deposit of Tax Refunds
                     Need Improvement to Increase Accuracy and Minimize Fraud




                                                                                        Appendix IV

     Management’s Response to the Draft Report
                                     DEPARTMENT OF THE TREASURY
                                      INTERNAL REVENUE SERVICE
                                          ATLANTA, GA. 30308

       COMMMISSIONER
WAGE AND INVESTMENT DIVISION

                                            September 12, 2012


MEMORANDUM FOR MICHAEL E. MCKENNEY
                ACTING DEPUTY INSPECTOR GENERAL FOR AUDIT

FROM:                      Peggy Bogadi /s/ Peggy Bogadi
                           Commissioner, Wage and Investment Division

SUBJECT:                   Draft Audit Report - Processes for the Direct Deposit of Tax Refunds Need
                           Improvement to Increase Accuracy and Minimize Fraud (Audit #201140021)

With the rapid growth in the use of direct deposits for receiving tax refunds, the ability for taxpayers to
allocate their refunds among up to three accounts was introduced as a means by which to give taxpayers
greater control over their refunds and encourage saving. The split refund option was first offered to
taxpayers during the 2007 Filing Season, and the ability to purchase United States Savings Bonds with a
refund was added in 2010. As the use of the option increased, some taxpayers began directing refunds for
seemingly innocuous purposes, ******************2(f)********************, but, as noted in the
report, this is an impermissible use of the split refund program. As discussed in more detail below, the IRS
is taking a number of actions in this area.

As noted in the report, when tax refunds are issued, the IRS passes additional identifying information to the
Financial Management Service (FMS), which, in tum, provides that information to the financial institutions
when electronic payments are transmitted. However,
*******************************2(f)****************************************************
*******2(f)********************************************** and have contributed to our efforts to
stop fraudulent refunds.

With regard to the finding of accounts receiving multiple deposits from multiple taxpayers, it is important
to note that the Treasury Inspector General for Tax Administration (TIGTA) has not verified ownership of
the bank accounts in question. There are circumstances where multiple deposits to a single account are
legitimate and acceptable. Thus, the IRS must initiate appropriate investigatory proceedings to ascertain
ownership. Nonetheless, we agree with the TIGTA that the findings are




                                                                                                   Page 16
                            Processes for the Direct Deposit of Tax Refunds
                      Need Improvement to Increase Accuracy and Minimize Fraud




indicative that additional controls are needed to identify and question these multiple deposits and the IRS is
making changes in this area for the 2013 filing season. Still, caution must be exercised in drawing
conclusions as to the extent of fraudulent activity present.

As mentioned, we are taking steps to address the split refund issue for the 2013 Filing Season. We believe,
first and foremost, that taxpayer education is essential in effectively restricting direct deposits to accounts
actually owned by the taxpayers. We are developing a communication strategy to address the issue and are
considering modifying the instructions for Form 8888, Allocation of Refund (Including Savings Bond
Purchases), to remind taxpayers that refunds should not be directed to accounts they do not own. We are
also refining fitters for next filing season to be more effective in this area in
***********************************2(f)*************************
***********************************2(f)********************************
***********************************2(f)************************************************
*********************2(f)*********************************
*****************2(f)***************************.

Finally, regarding the finding of multiple deposits to accounts listed on the tax returns of IRS employees,
we take this very seriously and have reviewed these transactions. We must stress caution in drawing
conclusions until all facts are known, including ownership of the accounts listed, and whether spousal
activity could be affecting the data. IRS employees like other taxpayers may have directed a portion of
their refunds for impermissible, but nonfraudulent purposes,
***************2(f)***********************. Your report indicates that 209 accounts listed on
employee returns had multiple direct deposits. It is important to note that this does not represent 209
different employees receiving multiple direct deposits to their accounts. The smaller number of employee
accounts that appear to have received questionable deposits have been referred to the TIGTA Office of
Investigations to determine if any conduct violations have been committed by the employees.

Attached are our comments to your recommendations. If you have any questions, please contact me, or a
member of your staff may contact Peter J. Stipek, Director, Customer Account Services, Wage and
Investment Division, at (404) 338-8910.

Attachment




                                                                                                     Page 17
                           Processes for the Direct Deposit of Tax Refunds
                     Need Improvement to Increase Accuracy and Minimize Fraud



                                                                                                           Attachment

RECOMMENDATION

RECOMMENDATION 1
The Deputy Commissioner for Services and Enforcement should ***2(f)******** ******2(f)**** tax return
preparers and IRS employees *************2(f)**********
************2(f)****************.

CORRECTIVE ACTION
New filters are being developed for the 2013 filing season regarding multiple deposits to the same account. These
will assist in addressing the issues identified in the report. We are also developing a messaging strategy for the 2013
Filing Season to remind taxpayers and tax return preparers that refunds due to taxpayers may not be
*****2(f)******* **************2(f)***************. The strategy will also inform taxpayers they should not
permit any portion of their refund to be ****************2(f)**********
******************************2(f)************************. In addition to the communication strategy
and efforts already underway to restrict direct deposits of tax refunds to taxpayer-owned accounts, we are
developing controls to identify instances where it appears tax return preparers and IRS employees may be
improperly using the direct deposit program for unintended purposes.

IMPLEMENTATION DATE
Communication Strategy - January 15, 2013
Development of Controls - January 15, 2013

RESPONSIBLE OFFICIAL
Director, Return Integrity and Correspondence Services, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor these corrective actions as part of our internal management control system.




                                                                                                             Page 18
